                                                           United States Department of State
                                                           and the Broadcasting Board of Governors

                                                           Office of Inspector General



                                                                  JUN 23 2011


MEMORANDUM

TO:            S/GAC - Ambassador Eric Goosby     Il
FROM:          OTG - Harold W.   Geise~o/
SUBJECT:       Report on Audit of Construction and Transfer of Ownership of the President's
               Emergency Plan for AIDS Relief (PEP FAR) Overseas Construction Projects
               (AUD/IP-II-14)

The subject report is attached for your review and action. As the action office for the report's
four recommendations, please provide your response to the report and infonnation on actions
taken or planned for the four recommendations within 30 days of the date of this memorandum.
Actions taken or planned are subject to followup and reporting in accordance with the attached
compliance response infonnation.

The Office of Inspector General (OTG) incorporated your comments as appropriate within the
body of the report and included them in their entirety as Appendix E.

OIG appreciates the cooperation and assistance provided by your staff during this audit. If you
have any questions, please contact Evelyn R. Klemstine, Assistant Inspector General for Audits,
at (202) 663-0372 or Naomi Snell, Director, International Programs Division, at (703) 284-2685
or by email at snellnialstate.gov.

Attachments: As stated.
              (b) (6)
cc: S/GAC -
    S/GAC
    LlLFA-
                                                               UNCLASSIFIED


                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General




                                                       Office of Audits
Office of Inspector General


                                Audit of Construction and Transfer of
                              Ownership of the President’s Emergency Plan
                                 for AIDS Relief (PEPFAR) Overseas
                                        Construction Projects

                                              Report Number AUD/IP-11-14, June 2011




                                                               Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be
                              made, in whole or in part, outside the Department of State or the Broadcasting Board
                              of Governors, by them or by other agencies of organizations, without prior
                              authorization by the Inspector General. Public availability of the document will be
                              determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
                              disclosure of this report may result in criminal, civil, or administrative penalties.



                                                              UNCLASSIFIED
                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General
                                   UNCLASSIFIED


Acronyms

AIDS         acquired immune deficiency syndrome
CDC          Centers for Disease Control and Prevention
DoD          Department of Defense
Department   Department of State
GAO          Government Accountability Office
HHS          Department of Health and Human Services
HIV          human immunodeficiency virus
MOA          memorandum of agreement
OBO          Bureau of Overseas Buildings Operations
OMB          Office of Management and Budget
OIG          Office of Inspector General
PEPFAR       President’s Emergency Plan for AIDS Relief
RPSO         Regional Procurement Support Office
S/GAC        Office of the U.S. Global AIDS Coordinator
USAID        U.S. Agency for International Development




                                   UNCLASSIFIED
                                                            UNCLASSIFIED


                                                         Table of Contents
Section                                                                                                                                          Page

Executive Summary .........................................................................................................................1

Background            ..................................................................................................................................3

Objective             ..................................................................................................................................8

Audit Results ..................................................................................................................................8

           Management and Guidance for PEPFAR Overseas Construction Projects Need
           Improvement ........................................................................................................................8
           Management Actions Taken ..............................................................................................16

Best Practices in Constructing PEPFAR Facilities ........................................................................18

List of Recommendations ..............................................................................................................22

Appendices
      A. Scope and Methodology................................................................................................23
      B. Legal Opinions From the Department of Health and Human Services
         and the Department of State Regarding PEPFAR Overseas Construction ....................26
      C. CDC Cable Halting New Overseas Construction for PEPFAR ....................................28
      D. PEPFAR Overseas Construction Guidance – FY 2006 to FY 2010 .............................30
      E. Office of the U.S. Global AIDS Coordinator Response................................................32

Major Contributors to This Report ................................................................................................39




                                                            UNCLASSIFIED
                                            UNCLASSIFIED


                                         Executive Summary
        Through the President’s Emergency Plan for AIDS Relief (PEPFAR), 1 the United States
assists affected countries in building laboratories, hospitals, blood banks, and care and treatment
centers in order to fight the global HIV/AIDS crisis. The Office of the U.S. Global AIDS
Coordinator (S/GAC) is responsible for oversight and coordination of all resources and
international activities of the U.S. Government to combat the HIV/AIDS pandemic, including
numerous construction projects throughout nine countries. 2 The purpose of this audit was to
assess the Department of State’s (Department) role and actions related to the award,
administration, and transfer of PEPFAR overseas construction projects from Department-
appropriated funds. The results of the Office of Inspector General’s (OIG) audit are being
reported in two reports. This report focuses on S/GAC’s oversight of PEPFAR construction.
The second report will focus on the Department’s award and monitoring of the underlying
contracts for PEPFAR construction.

        OIG found that S/GAC coordinated, provided oversight for, and transferred PEPFAR
overseas construction projects on an ad hoc basis. That is, S/GAC performed these duties when
they arose rather than prepared for them, contrary to their responsibilities as outlined in the initial
PEPFAR authorization. For example, the
Department of State and the Department of Health
and Human Services (HHS) were unprepared to
                                                              “But let us not forget that these
successfully reconcile a longstanding legal dispute
                                                              impersonal, inanimate objects –
regarding HHS’s authority to award contracts for
                                                              the bricks, glass, tile and plaster
PEPFAR construction projects overseas. In addition,
                                                              used in this building – also
completed construction projects have not been
                                                              serve a deeper, fundamentally
properly transferred to host governments.
                                                              human priority: The need for
                                                              shelter; for community; for
        These conditions occurred because S/GAC,
                                                              compassion; for cooperation;
while focusing high-level attention on building and
                                                              and for healing.”
planning PEPFAR programs, has paid insufficient
attention to engaging in high-level coordination and               CDC Country Director, Namibia
                                                                               September 25, 2009
resolution of issues related to administering PEPFAR
construction. In fact, S/GAC had not established an
effective management structure to resolve policy,
program, and funding disputes among the implementing agencies. In addition, the roles and
responsibilities of the various implementing agencies were not well defined for requisitioning
funds, awarding contracts, and accounting for constructed property. Finally, S/GAC guidance to
posts was ineffective in that there was no assurance that PEPFAR-funded construction projects
were properly completed, accounted for, or transferred.

        The lack of attention to the issues cited has resulted in all HHS-planned PEPFAR
construction projects overseas being halted during FY 2010, impacting individuals who need
access to a facility to be tested and/or treated for human immunodeficiency virus and/or acquired

1
 United States Leadership Against HIV/AIDs, Tuberculosis, and Malaria Act of 2003 (Pub. L. No. 108-25 §102).
2
 The nine countries are Tanzania, Ethiopia, Uganda, Namibia, Zambia, Kenya, Mozambique, Botswana, and
Malawi.

                                                                                                               1
                                            UNCLASSIFIED
                                       UNCLASSIFIED

immune deficiency syndrome (HIV/AIDS). Specifically, the three countries (Tanzania, Uganda,
and Ethiopia) OIG visited had put on hold 80 construction projects that planned to serve about
1.25 million patients. In addition, outstanding unliquidated obligations of more than $14 million
remain in accounts that potentially could be reclaimed and reallocated to fund new projects.
Furthermore, S/GAC was unable to provide a comprehensive inventory of PEPFAR properties
and did not know whether the properties had been completed or who owned or was responsible
for the maintenance of the properties.

Management Comments

        OIG provided a draft of this report to the Global AIDS Coordinator in April 2011
offering four recommendations: (1) to develop an interagency memorandum of agreement
(MOA) to address the PEPFAR overseas construction projects, (2) to seek resolution about the
legal dispute on construction authority with senior-level management within HHS, (3) to appoint
a senior-level official who has the requisite experience in construction and authority to make
decisions related to PEPFAR overseas construction projects, and (4) to establish guidance for all
agencies involved with PEPFAR overseas construction projects that clearly describes procedures
for construction and property management.

        In its May 12, 2011, response, which is presented in Appendix E, S/GAC provided
comments to the draft report. S/GAC disagreed with Recommendation 1, explaining, “S/GAC is
working with PEPFAR country teams that have construction needs to ensure adequate State
Department capacity to act as implementing agency” for PEPFAR construction projects. S/GAC
further stated, “Given these arrangements, S/GAC believes that an interagency memorandum on
construction is unnecessary.” S/GAC also disagreed with Recommendation 2, explaining,
“While State lawyers do not agree with the HHS legal view, we believe our alternative of
offering an alternative State mechanism is the more effective practical approach.” In addition,
S/GAC provided additional information subsequent to the issuance of our draft report that has
been incorporated into this report in the section “Management Actions Taken.”

        OIG considers Recommendation 1 resolved because S/GAC has taken steps to address
the findings described in this report relating to the management of PEPFAR overseas
construction projects. However, this recommendation will remain open until S/GAC
demonstrates that the actions taken have fully addressed the deficiencies noted concerning the
administration of PEPFAR construction projects. OIG considers Recommendation 2 resolved
and closed because the actions S/GAC has taken to reclaim and redistribute the $51 million in
PEPFAR construction funds provided to HHS and the U.S. Agency for International
Development (USAID), as well as the Department’s resolve to act as the implementing agency
for overseas construction projects, eliminate the immediate need to resolve the legal dispute with
HHS.

      S/GAC agreed with Recommendations 3 and 4. OIG considers both of these
recommendations resolved because S/GAC is taking steps to implement them; however, both
recommendations will remain open until S/GAC provides evidence they have been fully
implemented.



                                                                                                 2
                                       UNCLASSIFIED
                                             UNCLASSIFIED



                                              Background
       As part of the PEPFAR program, the United States assists affected countries in building
laboratories, hospitals, blood banks, and care and treatment centers. Care and treatment centers
provide services for individuals affected by tuberculosis and HIV; blood banks test donated
blood supplies to ensure the blood is safe to use; hospitals provide services such as antiretroviral
therapy for adults and children, palliative care, counseling and testing, and mother support
groups; and regional laboratories provide training for staff and quality control for district
laboratories, one of which is shown in Figure 1.




        Figure 1. This 2-story structure in Tanzania, completed in 2006 using PEPFAR funds, houses the
        Eastern Zone Blood Transfusion Center and the National Blood Transfusion Service. The facility
        contains space for counseling, collecting blood donations, laboratory testing, and offices for
        oversight of the blood safety program throughout the country. [OIG photo]

       Health facilities such as those cited are the foundation on which strong health care
services may be delivered to those in need. The Minister of Health from Namibia referred to the
construction or renovation of health facilities as a “priority.” This sense of urgency was also
shared by the Centers for Disease Control and Prevention (CDC) Country Director during an
inauguration ceremony for an antiretroviral treatment clinic in Namibia, where he stated the
following: 3

        In addition to expanding access to life-saving antiretroviral therapy, this clinic –
        the very building itself – can help to address other critical issues. Among these:

            •    New, clean facilities can motivate staff, improve morale, and lead to better
                 retention.
            •    Good ventilation in clinical and administrative areas can reduce and
                 control the spread of other infectious diseases, such as tuberculosis.

3
 Remarks by CDC Country Director Jeff Hanson at the Inauguration of the Eenhana Clinic, which provides
antiretroviral therapy, Sept. 25, 2009, <http//windhoek.usembassy.gov/september_25_2009.html>, accessed Dec.
2010.

                                                                                                               3
                                             UNCLASSIFIED
                                                UNCLASSIFIED


               •    State-of-the-art diagnostic equipment can return results to patients in a
                    more timely manner. These efficiencies can convince more patients to
                    return to the clinic for routine monitoring, and improve overall
                    antiretroviral therapy adherence.

       Through the Department’s overseas contracting office, 145 construction procurements, 4
valued at more than $56 million, have been awarded since 2003, as shown in Figure 2. These
construction and renovation procurements and their costs include the following facilities:

               •    Renovation of an HIV center in Addis Ababa, Ethiopia ($902,000).
               •    Construction of a regional laboratory in Adama, Ethiopia ($2.3 million).
               •    Construction of a regional laboratory in Bahir Dar, Ethiopia ($2.8 million).
               •    Construction of National blood bank and blood transfusion service buildings in
                    Maputo, Mozambique ($2.5 million).


                              Figure 2. PEPFAR Construction Procurements - by Country
                               (Including design and construction monitoring services)
               $25,000,000
                                 58

               $20,000,000
                                         22
               $15,000,000

               $10,000,000

                $5,000,000                       19
                                                         12       12     11        3
                                                                                         6     2
                         $-




           Source: OIG-generated chart – from the Regional Procurement Support Office files.

        PEPFAR-funded construction projects include newly built structures and renovations of
existing structures that are provided to the host government as a form of foreign assistance (for
example, a health clinic or hospital annex deemed necessary to deliver HIV/AIDS services). In
addition, construction of new facilities and renovations of existing facilities often occur on host
government-owned land and structures. Thus these properties should eventually be transferred
to the host government.

4
    The 145 construction procurements awarded include one or more projects or sites.

                                                                                                      4
                                                UNCLASSIFIED
                                          UNCLASSIFIED


Department of State Role and Authority Regarding PEPFAR Activities

       The U.S. Global AIDS Coordinator is appointed by the President and is confirmed by the
Senate to coordinate and oversee the U.S. global response to HIV/AIDS. Reporting directly to
the Secretary of State, the U.S. Global AIDS Coordinator has the following duties: 5

      •    Leads the U.S. Government’s international HIV/AIDS efforts.
      •    Ensures program and policy coordination among the relevant U.S. Government agencies
           and departments and nongovernmental organizations, avoiding duplication of effort.
      •    Pursues coordination with other countries and international organizations.
      •    Resolves policy, program, and funding disputes among the relevant U.S. Government
           agencies and departments.
      •    Directly approves all activities of the United States relating to combating HIV/AIDS in
           15 focus countries.
      •    Promotes program accountability and monitors progress toward meeting PEPFAR’s
           goals.

           Funding Flow for PEPFAR Provides Additional Authority

       As PEPFAR is the cornerstone and largest component of the U.S. President’s Global
Health Initiative, funding for PEPFAR activities comes from a number of accounts, and these
accounts fund various construction projects. The Department has responsibility to account for
and report on funds that flow from the Global Health and Child Survival (GHCS)-State account,
as shown in Figure 3.




5
    Per Pub. L. No. 108-25 § 102.

                                                                                                     5
                                          UNCLASSIFIED
                                                 UNCLASSIFIED


Figure 3. How PEPFAR Funds Will Be Distributed for FY 2009 (As planned by S/GAC)*




*PEPFAR funding flow as planned for FY 2009 depicts the GHCS-State account in the red box. The dotted red
lines show how those funds are further distributed within the Department and to other implementing agencies. The
other boxes list other accounts, some of which are notified and detailed to Congress by other parts of the U.S.
Government.
Source: Office of the U.S. Global AIDS Coordinator (S/GAC).

        Although much of the funding appropriated to the Department is transferred to other
agencies, the Department retains ultimate responsibility for the expenditure of funds in the
GHCS-State account. In accounting terms, the relationship created by these transfers is called
“parent-child” funding. Because various laws, such as PEPFAR, require a Federal agency
(referred to as the “parent”) to allocate some or even all of its budget authority to another Federal
agency, the Department of the Treasury establishes a transfer appropriation account (referred to
as the “child account”) with account symbols that include the two-digit department code of the
child followed by the two-digit department code of the parent. For example, the transfer
appropriation account 7519 designates HHS as the child (code 75) and the Department of State
as the parent (code 19). The transfer itself is often referred to as an “allocation transfer.” In this
manner, the parent transfers budget authority to the child, which then obligates and outlays sums
up to the allocated amount. Thus the parent is accountable for and maintains responsibility for
reporting, while the child performs on behalf of the parent and controls how the funds are
expended. 6




6
    Office of Management and Budget Circular No. A-136, Financial Reporting Requirements, revised Sept. 29, 2010.

                                                                                                                   6
                                                 UNCLASSIFIED
                                        UNCLASSIFIED


          Other Department Entities Involved in PEPFAR Overseas Construction

       In addition to S/GAC, the Regional Procurement Support Office (RPSO) in Frankfurt,
Germany, provides contracting support for construction projects funded through the GHCS-State
account. RPSO is the Department’s largest overseas acquisitions office, which acquires goods
and services for U.S. diplomatic and consular posts, primarily in Europe, Africa, Asia, and the
Middle East. RSPO provides expertise for purchases and contracts of all sizes and complexity.

        In each partner country, teams of implementing agency officials (PEPFAR country
teams) jointly develop country operational plans for use in coordinating, planning, reporting, and
funding PEPFAR programs. Within country, chiefs of mission provide essential leadership to
interagency PEPFAR country teams and, with other U.S. officials, have policy discussions with
host-country leaders to generate additional attention and resources for the pandemic and to
ensure strong partner coordination.

Additional Agencies Involved in PEPFAR Overseas Construction Projects

       While S/GAC has high-level responsibility and authority over PEPFAR funding that it
receives through the GHCS-State account, most of the funds are transferred to other agencies.
The construction contracts discussed in this report were funded either by direct Department
funding from the GHCS-State account or by transfers from this account to HHS and the
Department of Defense (DoD), of which field representatives from both agencies were
responsible for the operational aspects of the construction projects.

        CDC, a major component within HHS, receives PEPFAR funds and oversees
construction projects to support clinical interventions and infrastructure improvements. CDC’s
authority was expanded from the renovation of buildings to the construction of buildings by an
amendment to the Public Health Service Act 7 included in the reauthorization of PEPFAR funds
in 2008. This act states that HHS, in consultation with the Secretary of State, would use grants
or cooperative agreements to “make funds available to public or nonprofit private institutions or
agencies in foreign countries” when constructing facilities in support of the PEPFAR program.
Most of the PEPFAR overseas construction projects from the GHCS-State account were initiated
and managed by CDC.

        Overall, DoD supports a broad spectrum of military-specific HIV prevention programs,
infrastructure development and support (including laboratory, clinic, and hospital facility
renovation, equipment, and training), and treatment and care activities. These activities are
accomplished through direct military-to-military assistance, support to nongovernmental
organizations and universities and collaboration with other U.S. Government agencies in-
country. From the GHCS-State account, DoD funded eight construction projects in Zambia.




7
    42 U.S.C. § 242l-(b)(9) and (10).

                                                                                                 7
                                        UNCLASSIFIED
                                              UNCLASSIFIED


Guidance for PEPFAR Overseas Construction

        All U.S. Government agencies working to fight HIV/AIDS in each partner country come
together as one team under the leadership of the U.S. Ambassador to develop one annual work
plan. That work plan–the Country Operational Plan (COP)–is reviewed by interagency
headquarters teams, which make recommendations to the U.S. Global AIDS Coordinator on final
review and approval. The COP is the vehicle for documenting U.S. annual investments and
anticipated results in HIV/AIDS.

        Annually, S/GAC issues Country Operational Plan Guidance to provide instructions for
the entire COP process, including construction and acquisition, to overseas personnel responsible
for carrying out PEPFAR activities within each country. This guidance outlines the authorities
and limitations for procuring and managing PEPFAR overseas construction projects and
provides advice on how to identify both the construction project and the mechanism (for
example, contract, grant, or cooperative agreement) used to carry out the project.

                                                  Objective
        The results of OIG’s audit are being reported in two reports. The primary objective of
this audit was to determine whether the Department followed applicable policies, regulations,
and procedures for the construction of PEPFAR projects and transferring the projects to host
governments. The second report will focus on the Department’s award and monitoring of the
underlying contracts for PEPFAR construction.

                                               Audit Results

Management and Guidance for PEPFAR Overseas Construction Projects
Need Improvement
        S/GAC managed PEPFAR overseas construction projects in an ad hoc manner. S/GAC
did not develop a framework for administering and executing PEPFAR overseas construction
projects or to effectively resolve interagency disputes. For over a year, there has been a legal
dispute between the Department and HHS regarding HHS’s authority to award contracts for
PEPFAR construction projects overseas. In addition, S/GAC did not establish effective internal
controls for PEPFAR overseas construction projects, as required by Office of Management and
Budget (OMB) Circular No. A-123. 8

        S/GAC has not developed an MOA specific to PEPFAR overseas construction projects or
established an effective process to resolve policy, program, and funding disputes among the
implementing agencies. In addition, S/GAC has not provided adequate and consistent guidance
to PEPFAR country teams for the procurement, accounting, and transfer of PEPFAR overseas
construction projects.



8
    OMB Circular No. A-123, Management’s Responsibility for Internal Control.

                                                                                                   8
                                              UNCLASSIFIED
                                          UNCLASSIFIED

        The lack of an effective interagency dispute resolution process has resulted in all HHS-
planned PEPFAR construction projects overseas being halted during FY 2010, impacting
individuals who need access to a facility so that they can be tested and/or treated for HIV/AIDS.
Specifically, the three countries OIG visited (Tanzania, Uganda, and Ethiopia) put on hold 80
construction projects that planned to serve about 1.25 million patients. In addition, outstanding
unliquidated obligations of more than $14 million were in accounts that could be reclaimed and
reallocated to fund new projects. Furthermore, because S/GAC was unable to provide OIG a
comprehensive inventory of PEPFAR properties, it is unclear who (the Department, another
implementing agency, or the local host government) owns the property, who should account for
the property, and who should be responsible for maintenance of the property.

PEPFAR Overseas Construction Projects Lack a Strong Management Structure

        S/GAC did not establish a strong management structure to promote an effective internal
control environment for PEPFAR overseas construction projects, as required by OMB Circular
No. A-123. The Government Accountability Office’s (GAO) Standards for Internal Control in
the Federal Government 9 states the following:

          A good internal control environment requires that the agency’s organizational
          structure clearly define key areas of authority and responsibility and establish
          appropriate lines of reporting.

          The environment is also affected by the manner in which the agency delegates
          authority and responsibility throughout the organization. This delegation covers
          authority and responsibility for operating activities, reporting relationships, and
          authorization protocols.

        While S/GAC has focused high-level attention on building and planning PEPFAR
programs, it has given minimal attention to engaging in high-level coordination and resolution of
issues related to administering PEPFAR construction with its interagency partners. During the
audit, OIG team members were consistently told that officials responsible for PEPFAR
construction activities within the Department and CDC, both overseas at post and domestically,
did not know what their roles or responsibilities were for PEPFAR construction and who had
authority to requisition and approve PEPFAR construction funds.

          No Interagency Agreement Specific to PEPFAR Construction Projects

        S/GAC has not developed an MOA for administering and executing PEPFAR overseas
construction projects and for resolving interagency disputes related to construction. An MOA
establishes a mechanism that sets forth the terms and conditions under which the respective
parties will operate. It defines the authority, roles, and responsibilities of the respective parties,
and can provide a process to settle disputes among the signatory parties. The agreement also
identifies the parties involved, notes pertinent issues and proposed objectives, includes a


9
    GAO/AIMD-00-21.3.1, p. 9.


                                                                                                         9
                                          UNCLASSIFIED
                                                UNCLASSIFIED

summary of the essential terms of the agreement, and contains the signatures of the parties
involved.

       Without an agreement framework in place, U.S. Government agency personnel
responsible for PEPFAR construction projects were not clear about their roles and
responsibilities for awarding, accounting for, transferring, and resolving disputes.

         Ineffective Interagency Dispute Resolution

       OIG found that S/GAC had not reconciled a longstanding legal dispute between the
Department and HHS related to contract authority for PEPFAR overseas construction projects.
The primary point of contention between the two agencies is whether authority to award
contracts for PEPFAR overseas construction projects transfers with PEPFAR funds–from the
Department to CDC–or is retained by the Department. (b) (5)



                      (Legal opinions from the Department and HHS pertaining to authority to
award construction contracts overseas are in Appendix B.)
        (b) (5)
                            CDC unilaterally sent a cable to posts on November 4, 2009, advising
its staff to “cease and desist” from participating in the award of contracts for construction where
the Department retained funds. 10 (The CDC cable is shown in Appendix C.) Prior to the
issuance of the CDC cable, CDC personnel had been awarding PEPFAR overseas construction
contracts through the Department’s RPSO. However, because the CDC cable halted this
practice, CDC personnel were left with few options for procuring PEPFAR properties overseas.

       During FY 2010, following the November 2009 CDC cable, CDC explored different
options to procure construction projects outside of contract awards but had minimal success.
These options included awarding grants 11 and expanding the use of cooperative agreements 12 for
construction. CDC personnel at the posts OIG visited stated that CDC headquarters would
provide a solution in FY 2011.

        If CDC is required to use grants and cooperative agreements more extensively, it may
require more assistance from posts and the Department’s Bureau of African Affairs. However,
officials from the Bureau of African Affairs told OIG that they would be unable to commit

10
   Cable 09 CDC ATLANTA GA 7821, “CDC Officials – Requisitioning Procurements Using State Department
Funds,” Nov. 4, 2009.
11
   A grant is an award of financial assistance, the principal purpose of which is to transfer a thing of value from a
Federal agency to a recipient to carry out a public purpose of support or stimulation authorized by a law of the
United States, per Grants.Gov-Glossary <http://www.grants.gov/help/glossary.jsp>, accessed on Feb. 11, 2011.
12
   A cooperative agreement is an award of financial assistance that is used to enter into the same kind of relationship
as a grant. The cooperative agreement is distinguished from a grant in that it provides for substantial involvement
between the Federal agency and the recipient in carrying out the activity contemplated by the award, per
Grants.Gov-Glossary <http://www.grants.gov/help/glossary.jsp>, accessed on Feb. 11, 2011.


                                                                                                                    10
                                                UNCLASSIFIED
                                              UNCLASSIFIED

additional resources to assist CDC in using grants and cooperative agreements to award these
construction projects. Bureau officials also noted that they do not have the technical expertise to
manage these projects and that the only Department employees at post who have grant
experience are public affairs officers, who are unlikely to have experience in major construction
projects.

         Although some interagency relationships rely on informal understandings of employees,
other relationships are more complicated and require formalization through the development of
an MOA. A properly developed MOA provides efficiency and organization to the process so
that all the participants understand the procedures for executing interagency PEPFAR overseas
construction projects. In addition, an MOA can provide clear guidance on how to resolve
interagency disputes. Although having an informal structure may provide flexibility, the more
complex and comprehensive the program, the greater the need for structure and control.

          PEPFAR Overseas Construction Projects Halted Because of Legal Dispute

       The unresolved legal dispute led to CDC’s halting all planned construction projects for
FY 2010. For the three countries OIG visited, these construction projects supported care and
treatment facilities that planned to serve about 1.25 million patients, as shown in Table 1.

          Table 1. Construction Projects on Hold for Ethiopia, Tanzania, and Uganda
                                                                         Total              Total
                                                    Number of          Estimated         Estimated
                    Projects on Hold                Projects*            Costs          Patient Load
            CDC – Ethiopian Construction                        8      $ 18,000,000            143,643
            CDC – Tanzania Construction                        36         6,250,000             50,323
            CDC – Uganda Construction                          36        11,595,892          1,055,000
                  Total Reported                               80      $ 35,845,892          1,248,966
           *For the three posts OIG reviewed, the number of projects includes all projects that were
           reported and approved but not yet started in Country Operational Plans for 2010 and prior years.
           Source: OIG-generated table using CDC planning documents.

        In addition to impacting millions of individuals who need medical care, halting these
construction projects has affected planned projects in which the U.S. Government is a partner
with the host government or other partners. For example, in Ethiopia, CDC is a partner with the
Government of Ethiopia and a third partner to build one of three wings of a hospital in Gondar.
These wings will contain X-ray, pharmacy, and laboratory facilities. A senior CDC official
stated that construction on CDC’s wing should have already begun and expressed concern that
the other two wings will be completed before the CDC wing ever gets started. This official
emphasized that this was a major diplomacy issue in its relations with the Government of
Ethiopia.

      In Tanzania, CDC is a partner with Harvard University to build a hospital in Dar es
Salaam. This project was initially going to be awarded using a contract negotiated by RPSO.
However, when CDC’s “cease and desist” cable 13 was issued, this project was halted. CDC and

13
     Cable 09 CDC ATLANTA GA 7821.

                                                                                                              11
                                              UNCLASSIFIED
                                        UNCLASSIFIED

Harvard representatives expressed their concern because the land may be given to someone else
if CDC does not begin this project soon. In Uganda, a CDC representative stated in January
2011 that a PEPFAR project is at risk of losing the land for planned projects that are still on hold.

          Senior-Level Involvement and Construction Expertise Needed

        S/GAC had not effectively applied its authority to resolve policy, program, and funding
disputes among the implementing agencies for construction-related matters. Further, S/GAC
staff did not have construction experience or skills to help resolve related issues. GAO’s
Standards for Internal Control in the Federal Government 14 states, “Management should ensure
that skill needs are continually assessed and that the organization is able to obtain a workforce
that has the required skills that match those necessary to achieve organizational goals.”

        Although the duties of the U.S. Global AIDS Coordinator specifically include resolving
policy, program, and funding disputes among the relevant executive branch agencies, senior-
level S/GAC officials have not been effective in finding solutions to assist CDC in carrying out
an important part of its program–the construction and transfer of facilities to test and treat
persons with life-threatening diseases. In fact, much of the responsibility for handling this
important issue was delegated, by default, to an S/GAC budget analyst who had many other
responsibilities. RPSO officials and Department and CDC personnel in the field confirmed that
the S/GAC budget analyst was the individual they relied upon for information and advice related
to PEPFAR overseas construction. Considering the number of construction projects planned
and the importance of these projects to achieving PEPFAR goals, construction expertise is a
necessary skill within S/GAC’s workforce.

         PEPFAR implementing agencies have individuals with construction expertise who could
be detailed or appointed to S/GAC. Possible sources that would have individuals to fulfill
S/GAC’s need for an official with construction expertise include the Department’s Bureau of
Overseas Buildings Operations (OBO) and CDC’s Buildings and Facilities Office. OBO’s
Office of Construction Management provides management oversight and on-site construction
supervision for the Department’s worldwide construction program. CDC’s Buildings and
Facilities Office carries out domestic facilities planning functions for CDC, including new or
expanded facilities, major repairs, and improvements, and it conducts CDC’s real property
activities within the United States.

Better Guidance for PEPFAR Overseas Construction Projects Is Needed

        S/GAC did not establish effective internal controls for PEPFAR overseas construction
projects, as required by OMB Circular No. A-123. Specifically, S/GAC’s guidance for
procuring, accounting for, and transferring construction projects was confusing, often changing
from year to year, and did not provide sufficient details to execute PEPFAR overseas
construction projects. As a result, insufficient controls were in place to ensure that PEPFAR
construction funds and properties were properly requisitioned, accounted for, and transferred. In
addition, outstanding unliquidated obligations of more than $14 million remained in accounts
that could be reclaimed and reallocated to fund new projects.
14
     GAO/AIMD-00-21.3.1, p. 13.

                                                                                                  12
                                        UNCLASSIFIED
                                            UNCLASSIFIED



       OMB Circular No. A-123, which defines management’s responsibility for internal control
in Federal agencies, states:

        Management is responsible for establishing and maintaining internal control to
        achieve the objectives of effective and efficient operations, reliable financial
        reporting, and compliance with applicable laws and regulations. . . . Internal
        control includes processes for planning, organizing, directing, controlling, and
        reporting on agency operations. . . . [Internal] control should be designed to
        ensure that transactions are properly authorized and processed accurately and that
        the data is valid and complete.

        Procurement Guidance for PEPFAR Construction Is Needed

       The guidance that S/GAC provided to PEPFAR country teams regarding procuring
PEPFAR overseas construction projects differed each year from FY 2007 to FY 2010. (PEPFAR
Overseas Construction Guidance provided by S/GAC from FY 2006 to FY 2010 is summarized
in Appendix D.)

        Officials at posts OIG visited expressed confusion by the contradictory and changing
guidance S/GAC and HHS had sent them, emphasizing that they need clearer and more
consistent guidance. In addition, a CDC country director stated that S/GAC does not give the
field enough time to implement new policies and that field personnel often have to rush to adjust
to S/GAC’s frequent policy changes.

       A 2007 report from the Institute of Medicine 15 stated that PEPFAR country teams
“expressed . . . a great deal of confusion about the differing regulations of the many PEPFAR
implementing agencies concerning new construction.”

        Accurate Accounting of PEPFAR Overseas Construction Projects Is Needed

       S/GAC was unable to provide OIG a complete and accurate inventory of PEPFAR
overseas construction projects–either those in process or completed. S/GAC had made attempts
to develop a master list of construction projects but had managed to piece together only an
incomplete and inaccurate list of construction contracts. As of September 2010, S/GAC was still
attempting to gather, review, and confirm data for a master list of its construction projects.

       As applied to accounting for PEPFAR construction, controls are needed to accurately
record and track construction transactions from contract award to project completion and
disposal. GAO’s Standards for Internal Control in the Federal Government 16 states:

        Transactions should be promptly recorded to maintain their relevance and value to
        management in controlling operations and making decisions. This applies to the

15
   PEPFAR Implementation: Progress and Promise, Committee for the Evaluation of the President’s Emergency
Plan for AIDS Relief (PEPFAR) Implementation, 2007, p. 253.
16
   GAO/AIMD-00-21.3.1, p. 15.

                                                                                                            13
                                            UNCLASSIFIED
                                            UNCLASSIFIED

        entire process or life cycle of a transaction or event from the initiation and
        authorization through its final classification in summary records.

       S/GAC officials acknowledged that S/GAC is responsible for accounting for PEPFAR
properties. An S/GAC representative stated that S/GAC tracks annual program results but that
some countries are better than others in tracking and reporting project outcomes, such as
construction.

       In March 2009, S/GAC began gathering information on properties constructed overseas
with PEPFAR funds by visiting RPSO with representatives from the Department and CDC.
Based on this effort, S/GAC identified 168 construction procurements. The Department and
HHS then sent a joint cable 17 to 11 posts in July 2009 to obtain a better inventory of construction
procurements and identified 65 additional construction procurements, for a new total of 233
construction procurements. However, of the 233 construction procurements, a substantial
amount of data for each project was incomplete, including items such as contract number, task
order number, cost of project, and funding source. In addition, OIG found that 145 construction
procurements were awarded for one or more projects or sites but sometimes the sites were
regions and the individual projects were not specified.

        Formal Process To Transfer Ownership of PEPFAR Properties Is Needed

         In the absence of guidance, posts are using different methods to transfer ownership of
completed properties to host governments, but none of these methods involve a formal transfer
of title. For the three countries visited, OIG found that when PEPFAR overseas construction
projects were completed, one or more of the following actions occurred:

        •   By default, no specific action was taken. Host government personnel began using the
            building.
        •   A public ceremony was held, and the building was turned over to host government
            officials.
        •   The completed project/building was given to the host government via paper signed by
            the builder.

        GAO’s Standards for Internal Control in the Federal Government 18 states, “All
transactions and other significant events need to be clearly documented, and the documentation
should be readily available for examination.”

        Posts had used various unofficial forms to document the transfer of property for the three
countries OIG visited. For example, in Tanzania, OIG obtained “Handover Notes” for a care and
treatment center that CDC had built as part of the PEPFAR program. The document was signed
by a representative from the construction company that built the center and a representative from
the host government. However, the document did not have signatures from any U.S.
Government official, which calls into question the utility of the Handover Notes as a mechanism
17
   Cable 09 State 070685, “Completion and Transfer of HHS-and State-Funded Properties for PEPFAR,” July 8,
2009.
18
   GAO/AIMD-00-21.3.1, p. 15.

                                                                                                             14
                                            UNCLASSIFIED
                                             UNCLASSIFIED

to transfer the property. OIG also obtained an informal facility handover document for
renovation work completed at Bella Hospital in Ethiopia. The document was signed by a
representative from CDC and the medical director of the hospital.

        S/GAC has not provided clear or adequate guidance instructing posts on how to transfer
properties constructed with PEPFAR funds to the host government, including the proper
approach and mechanism that should be used. Although S/GAC provided guidance in December
2009, it did not provide procedures or a process for transferring properties, did not assign
responsibility for transferring PEPFAR properties after construction is complete, and did not
indicate how or when transfers should take place. In addition, posts need to know what
documentation is required to formally transfer the property, particularly if the host government
already owns the land on which the facility is constructed.

        $14 Million in Unliquidated Obligations for Ethiopia, Uganda, and Tanzania

        OIG reported in December 2010 19 that regional bureaus did not have assurance that
PEPFAR funds were used appropriately. The report concluded the bureaus that are allotted
funds are responsible for implementing internal controls to ensure that funds, property, and other
assets are safeguarded against loss from unauthorized acquisition, use, or disposition. However,
regional bureau staff are not involved in management of the PEPFAR program and accordingly
do not provide oversight of the related funds. As a result, the regional bureaus do not have
assurance that PEPFAR funds are used appropriately or effectively.

        During this audit, OIG determined that $14 million remained in accounts from
obligations made during FYs 2007, 2008, and 2009–Ethiopia had $10.4 million, Uganda had
$2.1 million, and Tanzania had $1.5 million. An S/GAC official stated that the $14 million of
unliquidated obligations comprise “in-process” and “approved but on hold” construction or
renovation project funds. However, obligations for construction projects are made based on
awarded contracts.

        Unclear Ownership and Responsibility for Building Maintenance

       Even though the projects were completed on local host government-owned land, it is
unclear as to who (the Department, another implementing agency, or the local host government)
owns the property, who should account for the property, and who should be responsible for
maintenance of the property. Without transfer documents, the U.S. Government may still legally
own the properties and may be liable for loss or injury that occurs on the property and for
maintenance of the property.

        Because the ownership of these properties is unclear, the host government also may not
be clear about its responsibilities for maintaining the PEPFAR properties once they are
completed. At one post, CDC officials stated that the host government is unsure of its
responsibilities for maintaining completed PEPFAR properties and that the host government
tends to rely on CDC to maintain these properties. A CDC representative at this post stated that

19
  Audit of Sources and Uses of Global HIV/AIDS Initiative Global Health and Child Survival Funds Related to the
President’s Emergency Plan for AIDS Relief (PEPFAR) for FYs 2007 and 2008 (AUD/SI-11-10, Dec. 2010).

                                                                                                             15
                                             UNCLASSIFIED
                                        UNCLASSIFIED

the handover documents are important because they should clearly describe the host
government’s responsibilities.

Management Actions Taken
        Subsequent to the issuance of our draft report, S/GAC provided additional information
regarding actions taken to address the noted deficiencies relating to the administration of
PEPFAR construction projects. S/GAC officials explained that they are instituting a more
rigorous process for PEPFAR construction, to include developing a new model for PEPFAR
construction with detailed guidance that will be incorporated in the FY 2012 COPs. This
guidance, which is currently being drafted, will include detailed procedural steps that country
teams must follow when the Department takes responsibility for implementing PEPFAR
construction projects. A major step in this new process will require PEPFAR teams undertaking
construction projects to identify Department personnel who will be responsible for requisitioning
the project, certifying the availability of funds, and managing the project.

        All PEPFAR teams undertaking new construction or renovation projects will also be
required to prepare a Construction Project Plan that includes detailed information about the plan,
including information such as the project type, project description, control number, type of
funding, prime partner name, recipient organization, goals, timelines, project justification, and
other pertinent data. S/GAC plans to assign a unique control number to each project to track the
life cycle of the project from the COP to the contract obligation in the Department’s Regional
Financial Management System.

        S/GAC is also implementing a new requirement that PEPFAR teams with construction
projects in their COPs should prepare a Memorandum of Understanding (MOU) on PEPFAR
construction and renovation with the host government “to improve coordination with host
government officials on construction needs in-country, to facilitate the planning and tracking of
projects, and to establish appropriate host country responsibilities for facilities following
transfer.” Beginning in FY 2013, S/GAC also plans to establish more uniform and
comprehensive monitoring and reporting procedures for PEPFAR properties by requiring
country teams to submit end-use monitoring reports. These reports help to ensure that
transferred property is used for the purposes for which the property was designed. Along with
the guidance in the COPs, S/GAC is preparing standard operating procedures for increased
oversight of construction and plans. S/GAC officials stated that they decided to include this
information in the COPs rather than in an MOA because they believed the COP is a more
appropriate vehicle for transmission of this information.

        In respect to the $14 million in unliquidated obligations that OIG identified relating to
planned PEPFAR construction projects, S/GAC officials explained that they had addressed these
concerns by reclaiming from HHS and USAID over $51 million in PEPFAR construction
dollars. More than $47 million was then redistributed to the Bureau of African Affairs, while
$4 million was redistributed to the Bureau of Western Hemisphere Affairs. RPSO will award
and monitor these projects, but the Department personnel, at post, will have responsibility for
requisitioning funds and for related tasks to ensure successful project implementation.


                                                                                                16
                                        UNCLASSIFIED
                                UNCLASSIFIED

Recommendation 1. OIG recommends that the Office of the U.S. Global AIDS
Coordinator develop an interagency memorandum of agreement to address the PEPFAR
overseas construction projects that specifies all parties to the agreement; defines the
purpose, background, and objective of the agreement; clearly defines the roles and
responsibilities of the agencies involved for acquiring and administering construction
projects; and provides for dispute resolution.

Management Response: S/GAC disagreed with the recommendation, stating that it is
“working with PEPFAR country teams that have construction needs to ensure adequate
State Department capacity to act as implementing agency for these projects,” thereby
negating the need for a memorandum of agreement.

OIG Analysis: OIG considers this recommendation resolved because the management
actions taken by S/GAC to address the deficiencies noted represent a practicable
approach. However, OIG continues to believe that an interagency memorandum of
agreement specific to PEPFAR overseas construction projects would serve as a valuable
management tool, particularly in delineating the roles and responsibilities of the agencies
involved with advancing the PEPFAR program and facilitating the resolution of disputes
when they arise. This recommendation will remain open until S/GAC demonstrates that
the actions taken have fully addressed the deficiencies noted concerning the
administration of PEPFAR construction projects. OIG will continue its oversight of this
issue and monitor S/GAC’s progress during the compliance process and will report
relevant findings accordingly.

Recommendation 2. OIG recommends that the Office of the U.S. Global AIDS
Coordinator discuss and seek resolution for the current legal dispute on construction
authority with senior-level management within the U.S. Department of Health and
Human Services.

Management Response: S/GAC disagreed with the recommendation (b) (5)



OIG Analysis: OIG considers the recommendation resolved and closed because the
actions S/GAC has reclaimed and redistributed the $51 million in PEPFAR construction
funds provided to HHS and USAID, as well as the Department’s resolve to act as the
implementing agency for overseas construction projects, eliminate the immediate need to
resolve the legal dispute with HHS.

Recommendation 3. OIG recommends that the Office of the U.S. Global AIDS
Coordinator appoint a senior-level official who has the requisite experience in
construction and the authority to make decisions related to PEPFAR overseas
construction projects and who will report directly to the U.S. Global AIDS Coordinator.

Management Response: S/GAC “agreed in principal” with the recommendation, adding
that “it would be highly useful to add additional construction expertise; however our

                                                                                         17
                                UNCLASSIFIED
                                           UNCLASSIFIED

           approach would be to look for various contracting mechanisms or agreements with State
           Department operating units such as RPSO or OBO for that support.”

           OIG Analysis: OIG considers this recommendation resolved because S/GAC is taking
           steps to implement it; however, this recommendation will remain open until S/GAC
           demonstrates that it has appointed a senior-level official who has the requisite experience
           in construction and the authority to make decisions related to PEPFAR overseas
           construction projects.

           Recommendation 4. OIG recommends that the Office of the U.S. Global AIDS
           Coordinator establish guidance that clearly describes procedures to be followed by U.S.
           Government agencies involved with PEPFAR overseas construction projects, including
           addressing the requisitioning of PEPFAR funds, accounting for PEPFAR properties (after
           construction and before transfer to the host governments), and transferring property to the
           host government.

           Management Response: S/GAC agreed with the recommendation, stating that it
           “intends to issue additional procedural guidance on construction.”

           OIG Analysis: OIG considers this recommendation resolved because S/GAC is taking
           steps to implement it; however, this recommendation will remain open until S/GAC
           provides evidence that it has established guidance that clearly describes procedures to be
           followed by U.S. Government agencies involved with PEPFAR overseas construction
           projects, to include the requisitioning of PEPFAR funds, accounting for PEPFAR
           properties, and transferring property to the host government.

                       Best Practices in Constructing PEPFAR Facilities
         In performing this audit, OIG noted two best practices in constructing PEPFAR facilities
in Tanzania and Uganda. These best practices include streamlining construction using
prefabricated structures and incorporating renewable energy features, such as solar power, in
construction. If implemented more widely, these best practices could reduce construction and
utility costs for PEPFAR, and the cost savings achieved would enhance the overall financial
sustainability of PEPFAR and make funds available to support additional people on treatment
programs.

        At the outset of his administration, President Barak Obama made it clear that the
Government needed to work better, faster, and more efficiently. The Tom Lantos and Henry J.
Hyde United States Global Leadership Against HIV/AIDS, Tuberculosis, and Malaria
Reauthorization Act of 2008 20 reauthorized PEPFAR funding for FY 2009 and required, among
other items, that a best practices report be disseminated. In addition, on September 14, 2010, the
President’s Management Council–a group of agency Deputy Secretaries overseeing the
President’s efficiency goals–stated that the Council is “pursuing a management agenda that



20
     Pub. L. No. 110-293.

                                                                                                    18
                                           UNCLASSIFIED
                                           UNCLASSIFIED

embraces technological innovations and management best practices to improve effectiveness,
efficiency, and customer service.” 21

Streamlining Construction Using Prefabricated Structures

        A CDC official stated that CDC used prefabricated buildings in Nigeria to solve
shortage-of-space problems. (The advantages of prefabricated structures are described in the
section “Best Practice – Prefabricated Structures.”)




21
  Memorandum for the Senior Executive Service, “The Accountable Government Initiative – an Update on Our
Performance Management Agenda,” OMB, Sept. 14, 2010.


                                                                                                           19
                                           UNCLASSIFIED
                                            UNCLASSIFIED


                            Best Practice – Prefabricated Structures
     Centers for Disease Control officials in Tanzania are working with the U.S. Agency for
     International Development to design prefabricated health clinics as an alternative to the
     traditional “bricks and mortar” construction of these properties. The advantages of using
     prefabricated structures include the following:

      Prefabricated health clinics cost less than the traditional “bricks and mortar” construction
         projects—an estimated savings of 10 to 20 percent.

        Prefabricated structures take less time to construct. Once the materials are delivered to the
         site, a structure can be assembled in 3 or 4 days.

        These structures have 15- to 30-year warranties and are fireproof, waterproof, and termite
         proof.

        The structures are versatile; units can be added on to configure a desirable size.

        The lightweight panels can be transported and assembled in remote areas.

        Less skill is required to assemble the units versus building new construction.

        Prefabricated clinics are projected to require little maintenance during their first 20 years of
         existence. Minimal maintenance is desirable in these locations because of a lack of skilled
         labor to perform maintenance.

                                    Prefabricated Health Clinics in Tanzania




            Mbagala, Tanzania                            Mbweni, Tanzania
            [Photo Source: USAID]                        [Photo Source: USAID]




Incorporating Renewable Energy Features Into Construction

        In addition to prefabricated structures, several posts are using solar energy as a primary
and back-up source of supply to address the country’s limited electrical resources. (Advantages
of solar energy are described in the section “Best Practice – Solar Energy.”)




                                                                                                            20
                                            UNCLASSIFIED
                                          UNCLASSIFIED


                                   Best Practice – Solar Energy
Secretary Clinton launched the Greening Diplomacy Initiative in April 2009 to “improve the
sustainability of the State Department’s facilities and operations.” One of the main objectives of the
Greening Diplomacy is to “develop and implement policies and initiatives that will reduce the State
Department’s environmental footprint and cut costs.” OIG observed practices in Tanzania and Uganda
that are helping to reduce the Department’s “environmental footprint” in its programs overseas.
Specifically, the President’s Emergency Plan for AIDS Relief (PEPFAR) projects in Tanzania and
Uganda are using solar energy to save costs and improve the reliability and availability of energy for
the laboratories and health centers that are being built.

At the Mukono Health Center in Uganda, solar energy is used as a back up to run critically essential
equipment such as refrigerators, small centrifuges, microscopes, and lighting. However, an official
from the Centers for Disease Control and Prevention (CDC) stated that solar ends up being used the
majority of the time rather than just for backup because of the unreliability of the main power grid in
Uganda. A CDC official in Uganda said that CDC includes provisions for solar power as part of its plan
to strengthen infrastructure for all of its health centers that include a blood bank component. The
official noted that each of the laboratories should be equipped to store blood and related chemicals at
regulated temperatures. However, many of these laboratories do not have access to the main power
grid, and even in cases where the laboratories do have access to electricity, the power is unreliable
and expensive. Solar energy has helped the PEPFAR program in Uganda provide a more reliable
energy source to keep critical equipment operating.

In Tanzania, CDC officials stated that they are using four solar-powered refrigerators. Using solar
power provides a continuous supply of electricity and helps to protect the contents of refrigerators at
night and during the weekend when power cuts are frequent. CDC is also considering purchasing
prefabricated structures with solar-powered panels, which allows a clinic to be delivered to a remote
location that does not have access to electricity. In general, solar energy provides a reliable source of
power, especially for rural facilities. A reliable and continuous supply of power from solar energy

     Allows for a safe supply of vaccines and icepacks for vaccine transportation.
     Reduces environmental and health threats by replacing noxious fumes from kerosene lamps.
     Improves quality of services (for example, autoclaving and/or sterilization of equipment and
      instruments).

Solar power can, over time, be cost efficient. After the initial capital investment, maintenance costs
are less than ongoing purchases of fuel (petroleum, kerosene, or wood) or publicly generated power.




                                                                                                            21
                                          UNCLASSIFIED
                                        UNCLASSIFIED


                                 List of Recommendations
Recommendation 1. OIG recommends that the Office of the U.S. Global AIDS Coordinator
develop an interagency memorandum of agreement to address the PEPFAR overseas
construction projects that specifies all parties to the agreement; defines the purpose, background,
and objective of the agreement; clearly defines the roles and responsibilities of the agencies
involved for acquiring and administering construction projects; and provides for dispute
resolution.

Recommendation 2. OIG recommends that the Office of the U.S. Global AIDS Coordinator
discuss and seek resolution for the current legal dispute on construction authority with senior-
level management within the U.S. Department of Health and Human Services.

Recommendation 3. OIG recommends that the Office of the U.S. Global AIDS Coordinator
appoint a senior-level official who has the requisite experience in construction and the authority
to make decisions related to PEPFAR overseas construction projects and who will report directly
to the U.S. Global AIDS Coordinator.

Recommendation 4. OIG recommends that the Office of the U.S. Global AIDS Coordinator
establish guidance that clearly describes procedures to be followed by U.S. Government agencies
involved with PEPFAR overseas construction projects, including addressing the requisitioning of
PEPFAR funds, accounting for PEPFAR properties (after construction and before transfer to the
host governments), and transferring property to the host government.




                                                                                                   22
                                        UNCLASSIFIED
                                        UNCLASSIFIED


                                                                                      Appendix A
                                  Scope and Methodology

       This audit focused on overseas construction from the Global Health and Child Survival
(GHCS)-State account for the President’s Emergency Plan for AIDS Relief (PEPFAR) where
procurement support was provided by the Department of State (Department) for FYs 2003 to
2010. The audit work for this report focused on the role and responsibilities of the Office of the
U.S. Global AIDS Coordinator (S/GAC) in the oversight and management of overseas
construction for PEPFAR. The Office of Inspector General’s (OIG) work and results related to
the Department’s contracting actions for the award and monitoring of these construction
contracts will be reported in a future report.

        To understand the role and responsibilities of S/GAC, OIG reviewed Federal
appropriations related to PEPFAR from 2003 to 2008. In addition, OIG reviewed pertinent laws,
regulations, Department policies and guidance, and agreements between the Department of
Health and Human Services (HHS) and the Department of State related to overseas
procurements, procurement authority, requisitioning, and transfer of property.

       OIG reviewed reports related to PEPFAR that it had previously issued and reports that
other Federal agencies and the Government Accountability Office had issued. OIG’s review
included searching the Internet and the Department’s Web site for information relevant to this
audit. OIG also obtained and reviewed documents from officials from the Department and the
Centers for Disease Control and Prevention (CDC) that explained the new procurement policy.

        OIG met with officials from the following bureaus and offices: S/GAC, to ascertain its
management and oversight roles regarding PEPFAR overseas construction projects; the Bureau
of Overseas Buildings Operations (OBO), to determine whether it had a role in the construction,
renovation, and maintenance of these building projects; the Regional Procurement Support
Office (RPSO) in Frankfurt, Germany, to identify the number of procurement awards; the
Bureau of African Affairs, to determine its role in the funding of PEPFAR overseas construction
projects; the Bureau of Administration, to determine its role in the procurement process; and the
Office of the Legal Adviser, to gain an understanding of the legal issues that surround the
PEPFAR overseas construction projects. Additionally, OIG coordinated with HHS’s legal office
to obtain its opinion about HHS’s authority to award contracts and transfer PEPFAR properties
to the host government.

        OIG met with CDC officials in Atlanta, Georgia, to obtain their perspective on the
following topics: legal opinions; the accountability of properties overseas; the decision by CDC
to use RPSO for procurement services; the use of grants or cooperative agreements for
construction projects; the transfer of property to the host government; the policies, guidance, and
agreements provided to CDC by the Department; the safety of CDC personnel occupying new or
renovated properties; and interagency planning and coordination. While at CDC headquarters,
OIG obtained documentation describing the funding process, S/GAC guidance to posts, a draft
memorandum of understanding, and CDC construction and procurement guidance for posts.



                                                                                                 23
                                        UNCLASSIFIED
                                              UNCLASSIFIED

        For the fieldwork phase of the audit, OIG traveled to the countries that had the most
construction procurements: Ethiopia, Tanzania, and Uganda. In each country, OIG met with
officials involved with PEPFAR overseas construction projects from the following agencies:
CDC, the Department of Defense (DoD), the U.S. Agency for International Development
(USAID), and the PEPFAR country coordinator. OIG met with CDC officials and the PEPFAR
country coordinator to obtain information regarding the status of current projects and the transfer
of property to the host government and to gain an understanding of how the properties are
accounted for at post. OIG also met with officials from USAID and DoD to determine those
entities’ level of involvement with the PEPFAR overseas construction projects

       Additionally, OIG met with the following embassy officials at each post: the Financial
Management Officer, to gain an understanding of how post accounts for PEPFAR properties and
the process used to approve and pay PEPFAR invoices; the General Services Officer, to
determine the officer’s level of interaction with PEPFAR construction projects; and the Regional
Security Officer, to obtain information about security measures taken during construction and to
be taken after the building has been completed. OIG also met with the ambassador and/or the
deputy chief of mission at each post to obtain a high-level overview of the PEPFAR construction
program.

        OIG’s Office of Audits conducted this audit from January 2010 to January 2011 in
accordance with generally accepted government auditing standards. These standards require that
OIG plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for the findings and conclusions based on the audit objectives. OIG believes that the data
was sufficiently reliable for purposes of its report, even though S/GAC was unable to provide a
complete and accurate inventory of PEPFAR overseas construction projects. OIG believes that
the evidence obtained provides a reasonable basis for the findings and conclusions based on the
audit objectives.

Prior OIG Reports

        In its February 2008 inspection of S/GAC, 1 OIG’s Office of Inspections (ISP) focused on
the role of S/GAC in coordinating AIDS activities among the various organizations working to
treat the disease. The report stated that S/GAC had made great progress in forging interagency
cooperation; however, the report recommended that S/GAC work with the Director of Foreign
Assistance to form an agreement as to who should oversee the flow of funds.

         In its November 2009 2 inspection of the exercise of chiefs of mission authority in
managing the PEPFAR program overseas, ISP focused on determining how chiefs of mission
fulfilled their responsibilities of coordinating, directing, and supporting the PEPFAR program at
overseas posts. The report contained information about OBO’s responsibility for security and
safety standards for building and leasing overseas. The report stated that OBO had the sole
approval authority for most building and leasing overseas for U.S. Government employees. The

1
 Report of Inspection of Review of the Office of the U.S. Global AIDS Coordinator (ISP-I-08-23, Feb. 2008).
2
 Report of Inspection of the Exercise of Chief of Mission Authority in Managing the President’s Emergency Plan for
AIDS Relief Overseas (ISP-I-10-01, Nov. 2009).


                                                                                                               24
                                              UNCLASSIFIED
                                             UNCLASSIFIED

report recommended that OBO, in coordination with S/GAC, develop parallel procedures for
approval of overseas construction and leasing.

        In OIG’s December 2010 audit report 3 on the uses of the Global Human
Immunodeficiency Virus/Acquired Immune Deficiency Syndrome initiative and Global Health
and Child Survival Funds related to PEPFAR, OIG tracked the flow of these funds for FYs 2007
and 2008 from appropriation to obligation and through the agency reports to S/GAC. The report
identified the following issues:

        •    Implementing agencies were not reconciling their funding reports submitted to
             S/GAC and the Department of the Treasury.
        •    Funding from S/GAC to the implementing agencies was often late.
        •    DoD does not obligate its funds efficiently or quickly.
        •    CDC and DoD do not have adequate internal controls over PEPFAR funding.

        The recommendations for this audit had not been closed as of February 2011.




3
 Audit of Sources and Uses of Global HIV/AIDS Initiative Global Health and Child Survival Funds Related to the
President’s Emergency Plan for AIDS Relief (PEPFAR) for FYs 2007 and 2008 (AUD/SI-11-10, Dec. 2010).

                                                                                                                 25
                                             UNCLASSIFIED
                                               UNCLASSIFIED


                                                                          Appendix B

                 Legal Opinions From the Department of Health and Human Services
               and the Department of State Regarding PEPFAR Overseas Construction
             Department of Health and Human Services Position
(b) (5)




             U.S. Agency for International Development Position
   (b) (5)




                                                                                    26
                                               UNCLASSIFIED
                                 UNCLASSIFIED

          (b) (5)




  Department of State Position
(b) (5)




                                                27
                                 UNCLASSIFIED
                                      UNCLASSIFIED


                                                                                 Appendix C

          CDC Cable Halting New Overseas Construction for PEPFAR
 Centers for Disease Control and Prevention Cable 09 CDC ATLANTA GA 7821, “CDC
                     Officials – Requisitioning Procurements Using
                                State Department Funds”

MRN: 09 CDC ATLANTA GA 7821
Date/DTG: Nov 04, 2009 / 041745Z NOV 09
From: CDC ATLANTA GA
Action: LUANDA, AMEMBASSY ROUTINE; NASSAU, AMEMBASSY
ROUTINE; DHAKA, AMEMBASSY ROUTINE; BRIDGETOWN, AMEMBASSY
ROUTINE; COTONOU, AMEMBASSY ROUTINE; GABORONE, AMEMBASSY
ROUTINE; BRASILIA, AMEMBASSY ROUTINE; OUAGADOUGOU,
AMEMBASSY ROUTINE; PHNOM PENH, AMEMBASSY ROUTINE; YAOUNDE,
AMEMBASSY ROUTINE; BEIJING, AMEMBASSY ROUTINE; BRAZZAVILLE,
AMEMBASSY ROUTINE; KINSHASA, AMEMBASSY ROUTINE; SAN JOSE,
AMEMBASSY ROUTINE; ABIDJAN, AMEMBASSY ROUTINE; COPENHAGEN,
AMEMBASSY ROUTINE; SANTO DOMINGO, AMEMBASSY ROUTINE; CAIRO,
AMEMBASSY ROUTINE; ADDIS ABABA, AMEMBASSY ROUTINE; PARIS,
AMEMBASSY ROUTINE; TBILISI, AMEMBASSY ROUTINE; ACCRA,
AMEMBASSY ROUTINE; GUATEMALA, AMEMBASSY ROUTINE;
GEORGETOWN, AMEMBASSY ROUTINE; PORT AU PRINCE, AMEMBASSY
ROUTINE; NEW DELHI, AMEMBASSY ROUTINE; JAKARTA, AMEMBASSY
ROUTINE; ROME, AMEMBASSY ROUTINE; ASTANA, AMEMBASSY ROUTINE
E.O.: 12958
TAGS: CDC, AMGT, XTAG
Pass Line: FOR CDC FROM CDC COGH
STATE FOR A/OPE, S/GAC
STATE PLS PASS HHS OGHA
FRANKFURT FOR RPSO

SUBJECT: CDC OFFICIALS - REQUISITIONING PROCUREMENTS USING STATE
DEPARTMENT FUNDS

SUMMARY: CDC employees must cease and desist from all requisitioning of all procurement
activities (including construction) which use OGAC-retained funds.

1. This message addresses the issue of CDC requisitioning of PEPFAR construction to be funded
by State Department retained funds. CDC has no control over utilization of appropriations that
do not rest in CDC coffers. (This guidance does not apply to OGAC funds which have been
transferred to CDC under the authority of Section 632(a) of the Foreign Assistance Act (FAA)
and, therefore, are available for use in CDC funded projects. Separate guidance will be issued
regarding construction with Section 632(a) transferred funds and CDC appropriations.)


                                                                                           28
                                      UNCLASSIFIED
                                         UNCLASSIFIED

2. CDC only has authority to requisition procurements for construction activities using funds
under CDC control (i.e., CDC appropriations; State funds transferred under Section 632(a) of the
FAA). State Department-retained funds remain exclusively available for State Department use.

3. Through Country Operations Plans (COPs), all participating PEPFAR agencies plan for
various projects, including construction of facilities. COPs should be drafted to clearly indicate
the funding source for any particular construction project planned. Specifically, if OGAC will be
retaining funds, construction projects funded with such funds must be identified in the COP as
State Department funded facilities.

4. In addition, CDC staff are not authorized and, therefore, are prohibited from engaging in any
activity that purports to requisition construction (i.e., obligate funds for construction) or any
other activities that would commit State Department funds. In addition, CDC personnel are
prohibited from engaging in any other activities that involve the control of movement of such
funds, including through communication (written or verbal) from CDC field staff, via the
embassy FMO or otherwise, to post contracting officers, RPSO, or any other entity funded with
such State Department-retained funds. In particular, CDC staff shall not sign any documents
related to requests for funding or actually funding of such projects. Appropriate authorized State
Department personnel are responsible for all funding related activities utilizing State Department
(retained PEPFAR or non-PEPFAR) funds.

5. CDC field staff, however, are authorized as part of their PEPFAR role to engage in non-
funding related activities regarding the accomplishment of COP authorized construction projects.
An example of such authorized CDC role in such a construction project would be to assist in
developing project specifications (e.g., laboratory design and equipment requirements).

6. Please refer questions on this message to (b) (6)

BLOUNT
Signature: BLOUNT
________________________________
Info: WASHDC, SECSTATE ROUTINE; WEBGRAM, USOFFICE
ROUTINE; FRANKFURT, AMCONSUL ROUTINE; FRC FT LAUDERDALE,
USOFFICE ROUTINE; ATLANTA GA, CDC ROUTINE
Attachments: metadata.dat
________________________________
Action Post:
Dissemination Rule: Released Copy
UNCLASSIFIED




                                                                                                29
                                         UNCLASSIFIED
                                            UNCLASSIFIED


                                                                                                  Appendix D

         PEPFAR Overseas Construction Guidance – FY 2006 to FY 2010
       Detailed guidance provided to posts regarding overseas construction for the President’s
Emergency Plan for AIDS Relief (PEPFAR) for FYs 2006 to 2010 is summarized by the Office
of Inspector General as follows:

        FYs 2006 and 2007. Centers for Disease Control and Prevention (CDC) personnel in
Tanzania stated that the CDC headquarters general counsel, in May 2006, had stated that CDC
could not use cooperative agreements for the expansion of existing space. As an alternative to
these cooperative agreements, the Office of the U.S. Global AIDS Coordinator (S/GAC) advised
posts to use the Regional Procurement Support Office (RPSO) for procurement of these projects
in the future. Based on that guidance, CDC personnel in Tanzania transferred planned
expenditures from their cooperative agreement partners for renovations costing more than
$15,000 to RPSO in the FY 2007 country operational plans.

        S/GAC advised CDC to use RPSO because CDC determined that it could not accept
funds for construction projects. S/GAC changed its policy so that funds for construction would
be transferred to the Bureau of African Affairs to be given to post for obligation to RPSO. In FY
2007 guidance, 1 S/GAC advised PEPFAR country teams to use RPSO for procurements but then
further advised that posts could also try to convince host governments or international
organizations to finance and conduct these construction projects.

       FY 2008. S/GAC continued to advise PEPFAR country teams to use RPSO for
construction procurements but then, under the procedures section, advised that the U.S.
Government should be the “option of last resort.” 2 S/GAC also advised the teams that the
Department of State (Department) has the legal authority to carry out overseas construction
under the Foreign Assistance Act of 1961, 3 while the U.S. Agency for International
Development (USAID), the Department of Health and Human Services, and the Department of
Defense (DoD) have only limited authority to carry out overseas construction projects.

        FY 2009. S/GAC gave PEPFAR country teams the option of using the Department of
State, USAID, or DoD for these procurements, 4 even though S/GAC had previously stated that
the Department has the legal authority to carry out overseas construction and that DoD and
USAD had “limited” authority.

      In September 2009, the Office of the Procurement Executive released guidance to CDC
and Department personnel overseas stating that supplies and services to be used by non-U.S.




1
  The President’s Emergency Plan for AIDS Relief, “Country Operational Plan Guidance,” FY 2007.
2
  PEPFAR “COP [Country Operational Plan] Guidance Appendices,” FY 2008.
3
  Pub. L. No. 87-195.
4
  PEPFAR “Country Operational Plan Guidance Appendices,” FY 2009.

                                                                                                          30
                                            UNCLASSIFIED
                                             UNCLASSIFIED

Government organizations must be funded by a grant or cooperative agreement issued by the
CDC Procurement and Grants Office. 5

         FY 2010. In a November 4, 2009, cable, 6 CDC requested that its employees “cease and
desist from all requisitioning of all procurement activities” using Department-retained funds. The
cable stated that “CDC only has authority to requisition procurements for construction activities”
using CDC-controlled funds and that “CDC staff are not authorized,” as part of their PEPFAR
role, to continue to assist in non-funding-related actives related to PEPFAR overseas
construction projects.

        Also in November 2009, CDC released guidance 7 regarding the use of RPSO for
procurement of goods and services for CDC. The guidance stated that CDC may only use RPSO
if CDC will have “direct ownership and benefit” of the goods and services procured for it by
RPSO. Furthermore, it stated that “[o]nly a grant or cooperative agreement may be used” when
the acquisition of goods and services benefits a recipient and that the “Department of State and
its overseas posts are NOT authorized to issue grants or cooperative agreements using CDC . . .
funds.”

        In a December 17, 2009, cable, 8 S/GAC provided the following guidance to posts:

        Please reprogram funds for previously approved projects to be contracted by
        RPSO [Regional Procurement Service Office] to another available mechanism –
        either HHS [Department of Health and Human Services]/CDC for an Atlanta-
        issued grant or cooperative agreement, or another PEPFAR implementing agency
        (USAID or DoD).

        On September 15, 2010, S/GAC issued updated guidance 9on overseas construction using
PEPFAR funds. This guidance provided information about authorities, limitations, and options
for carrying out PEPFAR overseas construction and renovation activities, including the possible
use of RPSO. A supplemental construction annex included with the September 14, 2010,
guidance required PEPFAR country teams to provide data related to FY 2010 and prior year
Country Operational Plan-approved construction projects in an attempt to compile a complete
and detailed list of all existing/approved construction projects.




5
  Cable 09 State 94144, “Guidance From the Procurement Executive on the Roles and Responsibilities of State and
CDC Personnel Posted Abroad,” Sept. 10, 2009.
6
  Cable 09 CDC ATLANTA GA 7821, “CDC Officials – Requisitioning Procurements Using State Department
Funds,” Nov. 4, 2009.
7
  Cable 09 CDC ATLANTA GA 7819, “CDC – Procedures for Requesting Procurement Actions by State RPSOS,”
Nov 4, 2009.
8
  Cable 09 STATE 129195, “HHS-PEPFAR Construction Guidance,” Nov. 4, 2009.
9
  “Construction and Renovation Guidance – September 14, 2010,” provided by S/GAC.

                                                                                                             31
                                             UNCLASSIFIED
                                 UNCLASSIFIED


                                                                                 Appendix E



                                                   United States Department of State

                                                   'J,L>hillgtOIl. f).C. 20520

MEMORANDUM                                                                May 12,20 II

TO:         OIG - Harold W. Geisel

FROM:       S/GAC - Ambassador Eric Goosby,       MI(fjf)
SUBJECT: Response to the Report, Audit of Construction and Transfer of
         Ownership of the President 's Emergency Plan for AIDS Relief
         (PEPFAR) Overseas Construction Projects

Thank you for the opportunity to review and comment on the March 20 II Draft
Office of Inspector General (OIG) report. The Office of the U.S. Global AIDS
Coordinator (S/GAC) appreciates the OIG's efforts to recognize the challenges that
S/GAC faces when implementing construction overseas. General comments and
comments specific to the OIG recommendations are enclosed.

S/GAC agrees with two of the OIG recommendations and has undertaken a
number of activities over the past year to improve PEPF AR construction overseas.
S/GAC is confident that our efforts will result in vast improvements to the
implementation, monitoring and reliability of managing PEPF AR construction
overseas.

S/GAC appreciates the efforts that GIG expended conducting this review. Thank
you again for the opportunity to provide comments on the Draft Report. S/GAC
looks forward to continuing our collaborative efforts with the OIG in the future.

If you have any further questions or would like to discuss any of the issues in more
detail, please feel free to      (b) (6)                           by email at
(b) (6)


Attachment: S/GAC Comments on March 20 II Office ofInspector General Draft
            Report




                                                                                         32
                                 UNCLASSIFIED
                                       UNCLASSIFIED




 SfGAC COMMENTS ON MARCH 2011 OFFICE OF INSPECTOR GENERAL DRAFT
                            REPORT

       AUDIT OF CONSTRUCTION AND TRANSFER OF OWNERSHIP OF THE

   PRESIDENT'S EMERGENCY PLAN FOR AIDS RELIEF (PEPFAR) OVERSEAS
                     CONSTRUCTION PROJECTS



Background and Comments

        We appreciate the opportunity to comment on thi s report and make the 10 aware of some
of the existing PEPF AR operating mechanisms and our future plans to address this area.

        By design, PEPFAR operates under a model that utilizes USG executive branch agencies
as implementing agency partners, and works with the operational expertise of those agencies to
carry out programs and implement HIV/AIDS foreign assistance projects. The HIV/AIDS
Leadership Act includes under duties of the Global AIDS Coordinator responsibility for
«[c]osuring that each relevant executive branch agency undertakes programs primarily in those
areas where the agency has the greatest expertise, technical capabilitics, and potential for
success." While interagency partners include 000, Peace Corps, State and others, USAID and
HHS (including CDC) are far-and-away the largest PEPFAR implementing agencies. USAIO
brings expertise in foreign assistance programs, and HHS/CDC has both technical knowledge on
disease and runs the largest domestic grants program in the USG.

        Lack of capacity to implement overseas construction projects for HIV/AIDS assistance
purposes has been a problem in PEPF AR. While certain agencies, including 000 and USAID,
have no problem with their authority to perform such activities, construction or substantial
renovation is work-intensive for procurement staff, and agencies are reluctant to take on projects
for other agencies. HHS/CDC has generated the greatest demand for comotruetion within
PEPF AR programs. In late 2009, CDC 's decision that it could not contract for overseas
construction prompted a substantial review of ex isting construction policies by S/GAC
leadership.

         In light of these difficulties, S/GAC concluded that it should develop a State Department
rnt:dnlIli~IIl to be available for PEPFAR construction. The State mechanism was not intended as
exclusive, and implementing agencies such as lJSAID or DoD that can carry out construction
effectively remained free to use their own mechanisms. CDC is also exploring plans to
implement construction through grants or cooperative agreements under authority added to the
Public Health Services Act, although CDC has not issued procedures and it is unclear if such an
approach will be cost effec tive.




                                                                                                     33
                                       UNCLASSIFIED
                                            UNCLASSIFIED


                                                      2



            It was recogni zed that a State mechanism could require additional State capacity in
    PEPFAR countries to handle functions relati ng to requisition, fundin g, oversight and clOse-Ollt of
    construction projects. In September 201 0, S/GAC issued updated "Construction and Renovation
    Guidance" to the fie ld outl ining these options, and high lighting the need for post planning if the
    State Department would act as implementing agency for construction projects. Where State is
    the implementing agency, funds will remain in State accounts (generally in the AF Bureau),
    construction or renovation projects will be approved by S/GAC via the COP, State oflicers will
    requisition the project and certify funds , RPSO will provide contracting actions, appropriate in-
    country personnel, who may include personnel from non-State agencies (e.g., CDC), wi ll act as
    thc Contracting Officer's Technical Representative (COTR) for specifications and on-location
    oversight of the project, and State officers will ensure proper transfer of possession.
(b) (5)




             Each year, S/GAC enters into a Memorandum of Agreement (MOA) with each
    implementing agency pursuant to the authority in Section 632 of the FAA. Thesc MOA's
    provide the vehicle to allocate GHCS-Slate funds to the implementing agencies, but also include
    financial. policy and legal conditions on the use of lhe funds. In short, these agreements form the
    basis for S/GAC's relationship with each implcmenting agency. These MOA ' s are an existing
    arrangement under which S/GAC may take up implementation issues with the agency on any
    topic, whether the problem is compliance with the policy to promote local capacity development
    and transition to local partners, or an issue over construction contracts. Given this existing
    structure, it could be counterproductive and confusing to layer on top an additional subject-
    matter MOA on construction. This said, S/GAC agrees construction needs clear mechanism(s)
    that utilizc an agcncy (or agencies) with acknowledged construction authority and the expenise
    to completc projccts.

            S/GAC questions the assertion in the draft Report that no management structure ha<; been
    developed for decision-making and resolution of disputes, The practice within PEPF AR is, in
    keeping with interagency nature of the program and the range of intcrests and agency practices
    this entails, to first scck resolution and build consensus through active dialogue and
    understanding, before exercising the authority of the Coordinator. Howcver, there is a structure
    of management-level committees, including the Deputy Principal s and the Principals (Assistant
    Secretary level), to provide senior input on difficult or contentious issues. These bodies advise
    the Coordinator, who ultimately decides matters within his authority.




                                                                                                            34
                                            UNCLASSIFIED
                                            UNCLASSIFIED


                                                      3



             Looking ahead on PEPF AR construction, S/GAC agrees the system needs strengthening.
     For example, relying on implementing agency procedures and country team management of
     construction has resulted in difficulties with consistent tracking of all such projects and their
     status. Thus, going forward , S/GAC intends to track centrally all PEPF AR construction
     (including significant renovation) that is funded with GHCS-State funds, and has already taken
     steps to begin this process. In addition, to assist country team/host govenunent planning and the
     efficient transfer of completed projects, S/GAC is developing template materials that will include
     a MOU with the host country on planned construction, and practical handover transfer forms.
     These materials will include appropriate understandings on maintenance, purpose, continued use,
     and responsibility for the property following handover.




     S/GAC Views on List of Recommendations

     Recommendation 1. OIG recommends that the Office ofthe U.S. Global AIDS Coordinator
     develop an interagency memorandum of agreement to address the PEPF AR overseas
     construction projects that specifies all parties to the agreement; defines the purpose, background,
     and objective of the agreement; clearly defines the roles and responsibilities of the agencies
     involved for acquiring and adminjstering construction projects; and provides for dispute
     resolution.

             Under current S/GAC construction and renovation guidance, PEPFAR implementing
     agencies may use State Department mechanisms to implement projects, unless the agency has its
     own mechanism that it prefers to use. S/GAC is working with PEPF AR country teams that have
     construction needs to ensure adequate State Department capacity to act as implementing agency
     for these projects. Given these arrangements, S/GAC believes that an interagency memorandum
     on construction is unnecessary, and therefore disagrees with lhis recommendation.

     Recommendation 2. OIG recommends that the Office of the U.S . Global AIDS Coordinator
     discuss and seek resolution for the current lcgal dispute on construction authority with senior-
     level management within the U.S. Department of Health and Human Services.
(b) (5)




      Recommendation 3. OIG recommends that the Office of the U.S. G lobal AIDS Coordinator
      appoint a senior-level official who has the requisite experience in construction and the authority
      to make decisions related to PEPFAR overseas construction projects and who will report directly
      La the U.S. Global AIDS Coordinator.

                                                                                                           35
                                            UNCLASSIFIED
                                       UNCLASSIFIED


                                                 4




        S/GAC agrees it would be highly useful to add additional construction expertise; however
our approach would be to look for various contracting mechanisms or agreements with State
Department operating units such as RPSO or OBO for that support. In principle, S/GAC agrees
with this recommendation.

Recommendation 4. 01G recommends that the Office of the U.S. Global AIDS Coordinator
establish guidance that clearly describes procedures to be followed by U.S . Government agencies
involved with PEPF AR overseas construction projects, including addressing the requisitioning of
PEPFAR fund s, accounting for PEPF AR properties (after construction and before transfer to the
host governments), and transferring property to the host government.

       SlGAC aerees with this recommendation. and intends to issue additional procedural
guidance on construction.



Specific comments on March 2011 draft Report text

Page 1, third paragraph, sentence beginning, " In fact, S/GAC has not established a management
structure . .. " As noted above. S/GAC does have a managcment structure that enablcs senior-level
interagency input to advise and infonn the Coordinator. S/GAC places a premium on active
interagency engagement to resolve disputes. This comment applies to the several mentions in the
report (page 11 , paragraph 5) of a lack of a decision-making structure at S/GAC. Recommend
you replace this language with the following:

The practice within PEPFAR is, in keeping with interagency nature of the program and the range
of interests and agency practices this entails, to first seck resolution and build consensus through
active dialogue and understanding, before exercising the authority of the Coordinator. However,
there is a structure of management-level committees, including the Deputy Principals and thc
Principals (Assistant Secretary level), to provide senior input on difficult or contentious issues.
These bodies advise the Coordinator, who ultimately decides matters within his autho rity".

Page 2, first paragraph, sentence beginning "In addition, outstanding unliquidated obligations of
more than $14 million remain in accounts that potentially could be reclaimed or reprogrammed
to fund new projects." OGAC explaincd this in the response email to Sharon L Richards (OIG)
Fri 1/7/20, "Ifwe redirect the $14 million in funds to other projects at this time, it would be very
difficult to ensure availabi li ty of future funding. The $14 million is comprised of 'in-process'
and 'approved but on hold ' construction or renovation project funds. Plea'ic update report per our
explanation provided above.

Page 5, final paragraph, sentence beginning «Because various laws": Revise to read «Because
various laws, such as the Foreign Assistance Act of 196 1, permit a Federal agency ...."


                                                                                                       36
                                       UNCLASSIFIED
                                        UNCLASSIFIED


                                                 5



PEPF AR is not a law (it is a "plan") and interagency allocations are not required but are
permitted by the FAA

Page 6, final paragraph. sentence beginning " CDC's authority": Insert "through grants or
cooperative agreements" after " construction of buildings".

Page 7, final paragraph, sentence beginning: "For over a year,"; Strike the word "unresolved" as
it implies that S/G AC was not engaged in dialogue designed to resolve this dispute.

Page 9, first paragraph under " Interagency Dispute Resolution": Rev ise the text to read "The
primary point of contention between the two agencies is whether the roreign Assistance Act
(FAA) provides authori ty to contract for construction services, and whether this authority to
award contracts for PEPF AR overseas construction projects transfers with PEPFAR funds - from
the Department to HHS a nd then to CDC. I-IHS believes that thc FAA does not provide thc
authority to award construction contracts overseas, and thus that such authority does not transfer
to HHS with the PEPF AR funds. The Department disagrees and believes that HHS does have
authority to award construction contracts with funds from the GHCS-State account."

Page 10, first paragraph, sentence beginning "The U.S. Global AIDS Coordinator said that he
had not elevated the issue because he did not real ize how the issue of awarding contracts for
overseas construction would impact PEPF AR program goals and that he had been focusing on
the number o f people receiving antiretroviral drugs. The Coordinator also said that the PEPf AR
program plans to evcntually move to country ownership and that construction will include m ore
renovations of existing structures in-country." OGAC recommends striking from the report. The
U.S. Global AIDS Coordinator, and his staff, were continually engaged in the issue and believed
it could be resolved through the processes identi fied above.

Page 10, second full paragraph beginni ng " If CDC is required to use grants and cooperative
agreements": The discussion in this paragraph suggests AF Bureau or State Department
assistance would be required ifeDe were to use grants or cooperative agreements for
construction projects. While CDC's authority to carry out construction through grants and
cooperative agreements states that it shall do so " in consultation with the Secretary of State,"
once a project was approved (e.g., via the COP), issuance of the grant or cooperative agreement
and management and oversight of the project would fall entirely to CDC as cognizant
implementing agency.

Page 18, last paragraph before heading "Unclear Ownership and Responsibility for Building
Maintenance": This is a minor point, but in line 2 usc of the tenn setting up "teams" is unclear.
Is this a typo and shou ld read "terms"? In late 2009, the Department developed model property
grant template documents which could be used to set the terms for transfer of constructed
properties.



                                                                                                     37
                                        UNCLASSIFIED
                                     UNCLASSIFIED



                                              6



Page 27, paragraph under "Department of State Position": Insert at the end "with GHCS-State
funds transferred to HHS under section 632 of the Foreign Assistance Act of 1961." The State
Department position is that HHS has FAA authorities, including construction authorities, with
GHCS-State and former GHA1 funds. We do not maintain the HHS has such authorities with its
own appropriated funds.




                                                                                                38
                                     UNCLASSIFIED
                                  UNCLASSIFIED




Major Contributors to This Report
Naomi Snell, Director
International Programs Division
Office of Audits

Barbara Ferris, Audit Manager
International Programs Division
Office of Audits

Sharon Richards, Auditor
International Programs Division
Office of Audits

Cristina Ward, Auditor
International Programs Division
Office of Audits

Doug Hundley, Auditor
International Programs Division
Office of Audits




                                                 39
                                  UNCLASSIFIED
UNCLASSIFIED




UNCLASSIFIED
